              Smithsonian Institution
              Office of the Inspector General


             In Brief                             Administration of Continuation of Pay Program
                                                  Report Number A-07-09-1, July 18, 2008




Why We Did This Audit                 What We Found

This is the first of two reports      The Smithsonian generally did not ensure the accuracy of COP benefit payments.
covering the Workers’ Compensation    For fiscal years 2004 through 2007, the Smithsonian paid over $400,000 in COP
Program at the Smithsonian            benefits for the 97 COP cases we reviewed. The Smithsonian made overpayments
Institution. During our audit, we     or improper payments, totaling over $189,000, in 68 of the 97 cases. The
determined that management did not    Smithsonian did not ensure that supervisors and timekeepers were adequately
effectively administer Continuation   trained in COP policies and procedures. Additionally, the Smithsonian did not
of Pay (COP) benefits, resulting in   maintain complete and accurate workers’ compensation files and had no system
both overpayments and improper        in place to properly track COP benefit payments. The Office of Human
payments to employees.                Resources did not provide sufficient oversight of the COP program and did not
                                      adequately support Smithsonian units, which manage individual claims.
We issued this report to advise       Likewise, unit supervisors and timekeepers did not effectively administer
management of program weaknesses      employee COP cases; for example, they did not consistently track COP usage and
and to prevent continued erroneous    obtain required medical documentation.
payments of COP benefits.
                                      Examples of overpayments and improper payments to Smithsonian employees
What We Recommended                   for COP cases included:

We made six recommendations to            •   Between FY 2004 to 2007, eight employees filed CA-1 forms late and still
strengthen management of the COP              received COP benefits totaling $62,846.
program and improve the accuracy of       •   Between FY 2004 to 2007, 19 employees did not file injury claims yet
benefit payments. We recommended              received COP benefits totaling $42,995.
that management seek                      •   In 2005, two employees received 60 and 45 days of COP beyond the 45-
reimbursement for overpayments and            day limit, totaling $11,563 and $4,995, respectively.
improper payments; perform                •   For a 3-year period between FY 2004 to 2006, one employee
monthly reconciliations of payroll            intermittently received COP benefits totaling $5,316 although the 45-day
reports to workers’ compensation              period had ended.
records; require physicians’
certifications of employees’          Weak oversight over the COP program increases the risk that the Smithsonian
continued disability; strengthen      will continue to overpay COP benefits to employees, diminishes the
training for supervisors and          Smithsonian’s ability to return employees to a productive status, and leads to
timekeepers; and clarify              increased work-loads for other unit staff. Moreover, these weaknesses will
requirements for maintaining          negatively affect the management of workers’ compensation cases as they progress
workers’ compensation files.          through the longer-term aspects of the program.

Management concurred with our
findings and recommendations and
has taken or planned corrective
actions that resolve all our
recommendations.
                                      For additional information or a copy of the full report, contact the Office of
                                      the Inspector General at (202) 633-7050 or visit http://www.si.edu/oig.
RESULTS IN BRIEF

The Smithsonian generally did not ensure the accuracy of COP benefit payments. For
the period reviewed, we determined that the Smithsonian made overpayments or
improper payments, totaling over $189,000, for 68 of the 97 cases we reviewed. The
Smithsonian did not ensure that supervisors and timekeepers were adequately trained in
COP policies and procedures. Additionally, the Smithsonian did not maintain complete
and accurate workers’ compensation files and had no system in place to properly track
COP benefit payments. The Office of Human Resources (OHR) did not provide
sufficient oversight of the COP program and did not adequately support Smithsonian
units, which manage individual claims. Likewise, unit supervisors and timekeepers did
not effectively administer employee COP cases; for example, they did not consistently
track COP usage and obtain required medical documentation.

We made six recommendations to strengthen management of the COP program and
improve the accuracy of COP benefit payments. We recommended that the Institution
recover inappropriate payments we identified as part of this review and examine the case
files for the other employees who received COP benefits to determine the propriety of
those payments.

BACKGROUND

The Federal Employees Compensation Act1 (FECA) provides that employees who sustain
a work-related traumatic injury resulting in a disability or lost time from work are
entitled to their regular pay up to a maximum of 45 calendar days. This benefit is called
Continuation of Pay, and is subject to taxes and other payroll deductions. To be eligible
for COP, an employee must submit a signed CA-1 Federal Employee’s Notice of
Traumatic Injury and Claim for Continuation of Pay/Compensation form within 30
calendar days of the injury and have started losing time from work within 45 calendar
days of the injury. COP ensures that an employee continues to receive regular pay while
the claim is being adjudicated by the Department of Labor’s (DOL) Office of Workers’
Compensation (OWCP).2

OWCP has the exclusive authority to determine questions of entitlement and all other
issues relating to COP; however, the Institution pays COP benefits to the employee.
OWCP provides specific criteria an employer must meet to controvert3 COP entitlement
or terminate COP payments. OWCP retains the ultimate right to reinstate COP benefits.
 (See Appendix C.)




1
  5 U.S.C. §§ 8101-8193. The Smithsonian provides FECA benefits to federal and trust employees as well as
to volunteers for disability due to personal injury or disease sustained while in the performance of duty.
2
  20 C.F.R. §§ 10.200-224 applies to continuation of pay under FECA. OWCP administers FECA.
3
  The term “controvert” means to dispute, challenge, or deny the validity of a claim for COP.


                                                    2
Smithsonian Policies and Procedures

Smithsonian policies and procedures for both federal and trust employees mirror the
federal regulations for COP and are contained in Smithsonian Directives (SD) 212 and
213, Chapter 810. Responsibility for administering the COP program is shared by the
OHR, unit supervisors, timekeepers, and employees. The Offices of Human Resources at
the Smithsonian Astrophysical Observatory and the Smithsonian Tropical Research
Institute4 manage their own workers’ compensation cases. In early FY 2007, Smithsonian
Business Ventures’ 5 (SBV) human resources office assumed responsibility from OHR for
its workers’ compensation cases. Additionally, the Office of Safety, Health, and
Environmental Management (OSHEM) obtains COP data from OHR and includes it in
the Institution’s Annual Report on Occupational Safety and Health to the Secretary of
Labor.

The employees’ timely submission of a CA-1 form supports the payment of COP benefits
and begins the adjudication process at OWCP. Injured employees must submit a
completed CA-1 form to their supervisor within 30 days from the date of injury.
Supervisors assist the employees in completing the form, certify that the claim
information is accurate, and forward the completed form to OHR for processing.
Supervisors are also responsible for recommending approval or controverting the claim
and notifying OHR when the employee has returned to work. OHR reviews the form for
completeness, maintains the signed copy for internal workers’ compensation files, and
forwards an electronic version of the CA-1 form and other documentation to OWCP for
adjudication. OWCP notifies the employee and OHR of the claim status. Employees,
supervisors, and timekeepers are responsible for accurately reporting COP on regular
timesheets. (For a detailed flowchart of the process, see Appendix D.)

If either the Institution or OWCP determines that an employee is not entitled to COP
after benefits have been paid, the employee may choose to have the time charged to
annual leave, sick leave, or leave without pay. If adjustments are necessary, the
supervisor will communicate any changes to the employee and coordinate with the
timekeeper and payroll division to correct timesheets and pay.




4
  Smithsonian Tropical Research Institute (STRI) federal and trust employees are entitled to receive COP
benefits under FECA regulations. Panamanian employees are covered under Panama’s Caja de Seguro
Social – Departamento de Riesgos Profesionales, which is similar to the U.S. Social Security
Administration.
5
  SBV is now Smithsonian Enterprises.


                                                    3
RESULTS OF AUDIT

The Smithsonian Did Not Effectively Administer Continuation of Pay Benefits

The Smithsonian did not provide adequate
oversight, training, or employee records for           Total Payments of Sample
the COP benefit program. Based on our                          Reviewed
sample of 88 employees, we identified 97
worker’s compensation cases totaling              Correct                    Incorrect
                                                  Payments                   Payments
$405,040. We concluded that the Institution
                                                    53%                        47%
incorrectly paid $189,563 for 68 cases, which
represents 47 percent of the COP benefits we
reviewed.

Examples of overpayments and improper payments to Smithsonian employees for COP
included:

   •   Between FY 2004 to 2007, eight employees filed CA-1 forms late and still received
       COP benefits totaling $62,846. In addition to filing the CA-1 form late, one of
       these employees received benefits for 195 days (the limit is 45 days), for a total of
       $30,072.
   •   Between FY 2004 to 2007, 19 employees who did not file injury claims received
       COP benefits totaling $42,995.
   •   In 2005, two employees received 60 and 45 days of COP beyond the 45-day limit,
       totaling $11,563 and $4,995, respectively.
   •   For a 3-year period between FY 2004 to 2006, one employee intermittently
       received COP benefits totaling $5,316, although the 45-day period had ended.

Table 1 describes the circumstances in which COP benefits should be denied according
to OWCP regulations.




                                             4
    Table 1: Amount of Overpayments and Improper Payments of COP Benefits
             Made to Employees in Sample
                                                         Number    Amount of
          Reason for Overpayments or Ineligibility       of Cases  Payments
                     OVERPAYMENTS TO ELIGIBLE EMPLOYEES
    45-day limit exceeded                                      22     $ 42,213
    COP began after end of 45-day period                         1       5,316
    Recurrence of disability6 after end of 45-day period         1       3,059
    COP charged prior to or on date of injury                  11        2,164
             Total Overpayments to Eligible Employees          35     $ 52,752
                 IMPROPER PAYMENTS TO INELIGIBLE EMPLOYEES
    CA-1 signed more than 30 days past injury date               8    $ 62,846
    No claim filed with OWCP                                   19       42,995
    Claim denied by OWCP                                         2      14,824
    No medical documentation obtained                            3      13,545
                                              7
    Employee reported occupational disease                       1       2,601
                Total Payments to Ineligible Employees         33    $136,811

We found no indication that supervisors, timekeepers, or employees submitted corrected
timecards to convert ineligible COP to annual leave, sick leave, or leave without pay.

There are a number of causes for the weaknesses in the Smithsonian’s management of
the COP program, including a lack of centralized oversight, lack of adequate training for
monitoring and tracking of COP, and poor recordkeeping.

    •    Lack of Oversight. We found that there was no centralized oversight of the COP
         program at the Smithsonian. According to SDs 212 and 213, OHR is responsible
         for providing assistance on the proper procedures for reporting and documenting
         claims; reviewing individual claim forms for completeness; and communicating
         directly with OWCP on the settlement of compensation claims. Additionally,
         OHR should coordinate with the Office of the Comptroller Payroll Branch on
         issues relating to COP benefits.

         OHR did not closely monitor COP benefit payments. Because the units prepare
         and approve timecards, OHR generally has no immediate knowledge when an
         employee charges COP. However, we found that even when OHR identified
         COP recipients from the National Finance Center (NFC) payroll system, it failed
         to provide the necessary oversight: it did not reconcile COP files to payroll data

6
  Recurrence of disability is defined as a spontaneous return or increase of disability due to a previous
injury or occupational disease without intervening cause, or a return or increase of disability due to a
consequential injury.
7
  Occupational disease is defined as a condition produced in the work environment over a period longer
than one workday or shift. It may result from systemic infection, repeated stress or strain, exposure to
toxins, poisons or fumes, or other continuing conditions of the work environment.

                                                     5
           or distribute COP reports to supervisors to assist them in identifying inaccuracies
           and other coding errors. OHR did not alert supervisors of ineligible employees,
           missing documentation, overpayments, or claims denied by OWCP.

           We also found that the NFC payroll reports used by OHR to identify COP
           payments do not capture timecard corrections, which may result in reductions or
           additions to COP costs. OSHEM uses this uncorrected data to prepare the
           Institution’s Annual Report on Occupational Safety and Health to the Secretary
           of Labor. We also note that the new Time and Labor module of the Institution’s
           Enterprise Resource Planning System is expected to be fully implemented by
           October 1, 2008. This system will replace the current time and attendance system
           and is designed to produce management reports of all time charged to COP,
           including timecard corrections.

           OHR and supervisors also were not diligent in obtaining and reviewing initial
           medical documentation. Additionally, OHR does not require that employees
           submit to their supervisors a physician’s certification supporting their continued
           disability, a best practice. Medical certification, at a minimum, must show that
           an employee continues to be disabled and unable to return to work. We
           observed several cases where the attending physician’s report, received by the
           Institution during the 45-day COP period, indicated that an employee could
           return to work, yet the employee continued to charge and receive COP.

           Further, unit supervisors indicated in interviews that they had received very little
           feedback or guidance from OHR regarding COP issues. Several indicated that
           they were unaware that their employees were ineligible for COP. We believe that
           active monitoring of COP data would have alerted OHR to employees who were
           ineligible or had received excess payments.

           According to OHR, staff allocated to workers’ compensation has not been
           adequate, and it has had difficulty retaining qualified benefits specialists. In
           previous years, one benefits specialist was assigned to handle all aspects of
           workers’ compensation in addition to managing many other federal benefit
           programs. In April 2007, OHR reorganized and cross-trained its benefits staff in
           workers’ compensation, designating one benefits specialist as a subject matter
           expert in workers’ compensation.

    •      Inadequate Training. Prior to the implementation of the Automated Incident
           Reporting System (AIRS) in July 2007, 8supervisors and timekeepers were
           generally inadequately trained on the preparation and timely submission of claim
           forms, maintenance of COP logs, and active communication with employees on
           COP issues. Supervisors and timekeepers generally were not aware that COP
           eligibility was contingent on the timely submission of key documents, such as the
           CA-1 form and medical evidence. For example, we identified eight instances

8
    AIRS automatically generates the CA-1 form, expediting the injury claim process.


                                                      6
    where CA-1 forms were submitted after the 30-day deadline for COP eligibility.
    These employees received almost $63,000, despite being ineligible for COP
    benefits.

    During our interviews with timekeepers and supervisors, they stated that they
    had not received training on how to count COP days, were not always aware that
    COP is counted in calendar days and not workdays, and that COP days include
    weekends and holidays. Many were not aware that it was incorrect to charge
    COP 1) for more than the 45-day limit; 2) when a claim had not been filed; and
    3) beginning after the 45-day period of eligibility had expired. In addition,
    supervisors, in many cases, did not seek clarification from the OHR benefits
    specialist on how to properly track COP.

    As a result, supervisors and timekeepers did not count COP usage in accordance
    with OWCP regulations, resulting in $42,213 of overpayments to 22 eligible
    claimants. We found numerous instances where both supervisors and
    timekeepers continued to approve COP on timecards even when employees had
    exceeded the 45-day limit. The following table illustrates the range of the excess
    COP days resulting in overpayments.

                 Table 2: Analysis of the Number of Days
                          Exceeding the COP 45-Day Limitation
                  Number of Days Number               Total
                    Over 45 Days       of Cases   Overpayments
                 1-5 days                    11          $ 5,138
                 6-10 days                    4             6,916
                 11-20 days                   2             4,160
                 21-30 days                   2             3,686
                 31 days and greater          3           22,313
                            TOTAL            22          $42,213

    After the implementation of AIRS, OHR developed training to familiarize
    employees with revised OHR policies and procedures for filing an injury claim.
    OHR offers workers’ compensation training to supervisors, with a specific COP
    component on tracking COP usage. Also, OHR has offered COP training to
    timekeepers.

•   Poor Recordkeeping. Although OWCP recommends that the employing agency
    develop a recordkeeping system that provides easy access to claim information,
    OHR did not maintain adequate worker compensation files. OHR case files were
    lacking key documents, such as the CA-1 forms and medical evidence. Of the 97
    cases sampled (for the 88 employees we selected), we had to request and review
    52 case files from OWCP to obtain the documentation that should have been in
    OHR files but was missing. OHR attributed missing files and the lack of




                                         7
        documentation to some units having submitted injury claims directly to OWCP.9
        Incomplete case files restrict OHR’s ability to effectively manage the COP
        program.

Weak oversight over the COP program increases the risk that the Smithsonian will
continue to overpay COP benefits to employees, diminishes the Institution’s ability to
return employees to a productive status, and leads to increased work-loads for other unit
staff. As we previously mentioned, COP is the first phase of the workers’ compensation
program. In our view, weak oversight and poor recordkeeping also will negatively affect
the management of workers’ compensation cases as they progress through the longer-
term aspects of the program.

RECOMMENDATIONS

To strengthen management of the COP program, the Institution should develop and
implement additional procedures for monitoring and tracking COP benefits.

We recommended that the Director of the Office of Human Resources, in coordination
with the Human Resources Directors at Smithsonian Business Ventures, Smithsonian
Astrophysical Observatory, and the Smithsonian Tropical Research Institute:

    1. Instruct the units to prepare corrected employee timecards and seek
       reimbursements for the identified overpayments and improper payments, as
       appropriate.

    2. Conduct a review of those employees who received COP benefits who were not
       included in our sample; identify overpayments and improper payments; and take
       corrective action.

    3. Perform monthly reconciliations of payroll reports to workers’ compensation
       records to confirm employee eligibility.

    4. Require supervisors to obtain physicians’ certifications of employees’ continued
       disability and forward copies to OHR to be filed in employees’ workers’
       compensation files.

    5. Ensure that newly developed and implemented procedures are included in COP
       training for supervisors and timekeepers.

    6. Clarify requirements for workers’ compensation file maintenance, including, at a
       minimum, that all OHR workers’ compensation case files include signed CA-1
       forms and initial medical evidence required for COP eligibility.

9
 With the implementation of AIRS, Smithsonian procedures now require that a signed CA-1 form be
received by OHR prior to transferring an electronic copy of the CA-1 to OWCP.



                                                 8
MANAGEMENT RESPONSE

Management’s June 30, 2008, response to our draft report concurred with all six
recommendations. Beginning July 1, 2008, OHR will perform monthly reconciliations of
payroll reports to workers’ compensation records to confirm employee eligibility. By
December 31, 2009, management will correct overpayments and improper payments
identified by this audit, and will review all remaining employees who received COP
benefits (but were not included in the audit sample) and take corrective action as
appropriate.

Additionally, management noted that it has completed actions on three of the
recommendations. OHR has documented the requirement for obtaining physicians’
certifications of employees’ continued disability in its written processes and included
policies and procedures specific to COP issues in current workers’ compensation
training. Also, management stated that requirements for obtaining signed CA-1 forms
and initial medical evidence will be reinforced in COP training and clarified policies for
filing key documents in OHR.

We include the full text of management’s response as Appendix B.

OFFICE OF THE INSPECTOR GENERAL COMMENTS

Management’s actions, both taken and planned, respond to the recommendations, and
we consider the recommendations resolved. For recommendations 1 and 2, OHR
concurs with the recommended actions but estimates that the expense of reconciling
these records and correcting the errors may exceed the overall costs recovered. OHR
assumes that many employees will choose to recoup compensation for lost wages
through DOL and we will ultimately have to pay DOL for those costs anyway. OHR also
plans to hire contractors to perform the bulk of this work. In our opinion, the work left
to correct the erroneous payments we identified and analyzed is minimal and should not
require contractor services.

Regarding recommendation 2, we consider OHR’s cost estimates to review and correct
erroneous payments for the rest of the COP recipients excessive. The estimates do not
reflect opportunities for reducing the cost to recover these payments. For example,
approximately 50 employees did not have a case filed with DOL as of June 30, 2007,
reducing the number of cases to be reviewed. In addition, we agree that it may not be
cost beneficial to pursue erroneous payments to former employees, which further
reduces recovery costs.

Overall, OHR projects that it will need to expend over $175,000 in contractor services to
assist OHR in analyzing the COP records and seeking appropriate recoveries. OHR’s
estimates assume a $35 per hour premium over OHR’s program experts. In our view,
OHR and the Institution would be better served by hiring a full-time or part-time
workers’ compensation expert to perform these tasks, relieve the burden on existing staff,



                                             9
and provide OHR with longer-term assistance in improving management of the
Smithsonian’s workers’ compensation program and other benefits services.

Regarding recommendation 3, on performing monthly reconciliations, by
September 30, 2008, we will review OHR’s reconciliations of payroll reports to workers’
compensation records to confirm employee eligibility. Likewise for recommendation 6,
while OHR indicated in its response that actions for this recommendation were already
completed, we will establish a completion date of September 30, 2008. OHR assured us
that it will be more diligent in ensuring that signed CA-1 forms and initial medical
evidence are retained in its workers’ compensation files. As part of our continuing work
on the workers’ compensation program, we will select a sample of case files to determine
if OHR is retaining the required documentation.

For recommendations 4 and 5, management added a requirement for employees to
submit physician’s certifications to support continued disability and included new COP
procedures in workers’ compensation training for supervisors and timekeepers. We
verified that supervisors and timekeepers have been attending COP training during
FY 2008. Based on these actions and OHR’s commitment to keeping workers’
compensation records current and continuing to offer COP training, we consider these
recommendations closed.




                                           10
APPENDIX A. SCOPE AND METHODOLOGY

To determine whether the Institution has adequate policies and procedures to
administer and track its COP program, we interviewed management and staff from
the Office of Human Resources, Office of the Comptroller (OC), Smithsonian
Business Ventures, Smithsonian Astrophysical Observatory, Smithsonian Tropical
Research Institute, Office of Facilities, Engineering and Operations, Office of the
Chief Information Officer (OCIO) and several Institution museums and
organizations. We reviewed the Smithsonian policies and procedures for
documenting and managing COP benefits; the Code of Federal Regulations; and
DOL publications, policies, and procedures for the management of COP.

To identify the total universe of COP payments, we obtained payroll data from the
Office of Human Resources and Smithsonian Business Ventures for fiscal years 2004
through 2007. We identified 343 Institution employees who received COP benefits
totaling $683,195. We matched employees on the payroll listings to the OWCP
chargeback reports and identified associated OWCP case numbers,10 which validate
that an injury claim was filed.

We judgmentally selected a sample of 88 employees receiving $405,040 in COP
benefits to conduct detailed testing. We determined that several employees had
multiple cases, which expanded our testing to 97 workers’ compensation cases. The
sample comprised employees who we determined represented groups with a greater
chance for overpayments or improper payments, plus a randomly selected sample of
the universe. Our sample included the following groups:

     •   Employees with 360 or more hours of COP: We selected all 10 employees
         who charged 360 or more hours to COP resulting in payments totaling
         $123,910. We decided to sample employees who charged 360 or more hours
         because supervisors and timekeepers tracking COP might incorrectly convert
         45 calendar days to hours (45 * 8 = 360 hours).

     •   Employees who received over $5,000 in COP benefits: Beyond those
         employees charging more than 360 hours of COP, we selected all remaining
         27 employees who received COP payments in excess of $5,000, totaling
         $192,039. Although the amount of COP paid to an employee is largely a
         factor of the injured employee’s salary, it may also be an indication of
         someone who has been paid for more than the allowed 45 days of COP.

     •   Employees not listed on the Charge-Back Report: We identified 70
         employees not listed on the July 2004 through June 2007 chargeback reports.
         We selected all 23 employees from this group who received COP payments of

10
  All injury claims submitted to OWCP are assigned a case number regardless of whether accepted or
denied.

                                               A-1
       $1,000 or greater, totaling $57,041. Failure to appear on a chargeback report
       usually indicates that OWCP did not receive a claim.

   •   Employees at Smithsonian Business Ventures – In 2003, SBV implemented
       a separate payroll processing system. We selected the 10 employees with the
       highest COP costs. Payroll costs for these employees totaled $14,851, which
       represented 81 percent of SBV’s total COP costs for the audit period.

   •   Employees at the Smithsonian Astrophysical Observatory (SAO) – SAO
       workers’ compensation cases are managed by SAO human resources staff in
       Cambridge, Massachusetts. We identified 8 employees who received COP
       benefits totaling $8,877. Because of the small number, we decided to review
       all 8 SAO employees.

   •   Random Selection of COP claimants – We determined that 200 employees
       did not fall into any of the previously identified groups. We randomly
       selected 10 employees from this category who received benefits totaling
       $8,322.

To determine whether employees charged COP for more than 45 days, after the 45-
day deadline, or prior to the date of the injury, we requested official timecards,
including corrected timecards, from the payroll divisions of OC, SBV, and SAO. For
each claim, we tracked COP days to determine if the usage was properly counted.
We obtained additional timecard detail from OCIO for Office of Facility Engineering
and Operations employees. To verify time charged to COP, we reconciled timecards
to the payroll data produced from the NFC and Automatic Data Processing systems.

To determine whether claims were submitted in a timely manner, we reviewed the
workers’ compensation case files maintained at the respective human resources
offices and assessed whether required documentation was submitted within OWCP
guidelines. In cases where there was no file or available files were lacking
information, we reviewed the official case files at the Department of Labor, Office of
Workers’ Compensation. We contacted DOL OWCP district offices in Washington,
D.C., New York, San Francisco and Philadelphia for assistance in obtaining records.

We interviewed supervisors and timekeepers from various offices to assess their
knowledge of the COP program and whether they had received training on COP
regulations, policies and procedures. We determined to what extent their respective
human resource offices had provided guidance on the management of COP. We
followed up with the payroll offices to determine if any efforts were made to correct
overpayments or improper payments. Lastly, we identified deficiencies in the
program, causes and effects of the deficiencies, and management’s plans for
corrective action.




                                         A-2
We conducted this audit in Arlington, Virginia and Washington, D.C. from
November 2007 to June 2008 in accordance with Government Auditing Standards as
prescribed by the Comptroller General of the United States and included tests of
internal controls as we considered necessary.




                                       A-3
APPENDIX B. MANAGEMENT RESPONSE




                         B-1
APPENDIX B. MANAGEMENT RESPONSE




                         B-2
APPENDIX B. MANAGEMENT RESPONSE




                         B-3
APPENDIX B. MANAGEMENT RESPONSE




                         B-4
APPENDIX B. MANAGEMENT RESPONSE




                         B-5
APPENDIX B. MANAGEMENT RESPONSE




                         B-6
APPENDIX B. MANAGEMENT RESPONSE




                         B-7
APPENDIX C. REASONS FOR CONTROVERTING OR
            TERMINATING COP

     An employer may controvert COP11 when:
       •    The disability was not caused by a traumatic injury;
       •    The employee is not a citizen of the United States or Canada;
       •    No written claim was filed within 30 days from the date of injury;
       •    The injury was not reported until after employment was terminated;
       •    The injury occurred off the employing agency’s premises and was otherwise
            not within the performance of official duties;
       •    The injury was caused by the employee’s willful misconduct, intent to injure
            or kill himself or herself or another person, or was proximately caused by
            intoxication by alcohol or illegal drugs; or
      • Work did not stop until more than 45 days following the injury.
     An employer may terminate COP12 when:
       •    Medical evidence which on its face supports disability due to a work-related
            injury is not received within 10 calendar days after the claim is submitted
            (unless the employer’s own investigation shows disability to exist). Where the
            medical evidence is later provided, however, COP shall be reinstated
            retroactive to the date of termination;
       •    The medical evidence from the treating physician shows that the employee is
            not disabled from his or her regular position;
       •    Medical evidence from the treating physician shows that the employee is not
            totally disabled, and the employee refuses a written offer of a suitable
            alternative position which is approved by the attending physician. If OWCP
            later determines that the position was not suitable, OWCP will direct the
            employer to grant the employee COP retroactive to the termination date;
       •    The employee returns to work with no loss of pay;
       •    The employee’s period of employment expires or employment is otherwise
            terminated (as established prior to the date of injury);
       •    OWCP directs the employer to stop COP; or
       •    COP has been paid for 45 calendar days.



11
     20 C.F.R. § 10.220.
12
     20 C.F.R. § 10.222.




                                             C-1
APPENDIX D. SMITHSONIAN INSTITUTION CONTINUATION
            OF PAY PROCESS




                        D-1
APPENDIX E. SMITHSONIAN INSTITUTION COP PAYMENTS BY UNIT

                                       Fiscal Years 2004 – 2007

                                                                       Number of          Total
                               Unit                                     Hours           Payments
   Office of Facilities Management and Reliability                        10,794          $209,412
   Office of Protection Services                                           8,761           145,561
                                             13
   Cooper-Hewitt National Design Museum                                    3,096            64,908
   National Zoological Park                                                2,828            64,348
   National Museum of American History                                       658            24,219
   National Air and Space Museum                                           1,075            24,339
   Office of Human Resources                                                 731            21,324
   National Museum of the American Indian                                  1,047            19,915
   Smithsonian Business Ventures                                           1,401            18,302
   National Museum of Natural History                                        444            11,118
   Office of the Chief Information Officer                                   318            10,311
   Office of Development                                                     180             9,052
   Smithsonian Astrophysical Observatory                                     350             8,877
   Office of the Treasurer                                                    80             7,500
   Arthur M. Sackler Gallery/Freer Gallery of Art                            254             6,862
   Accessibility Programs                                                    180             5,988
   Smithsonian Institution Libraries                                         160             5,293
   Visitors Information and Associates Reception Center                      217             4,606
   Office of Exhibits Central                                                142             3,723
   Office of Safety, Health, and Environmental Management                    102             3,538
   Anacostia Community Museum                                                 85             2,964
   Hirshhorn Museum and Sculpture Garden                                      92             2,245
   Center for Folklife and Cultural Heritage                                  35             1,888
   Smithsonian Environmental Research Center                                  38                887
   Smithsonian Latino Center                                                  27                781
   Smithsonian American Art Museum                                            13                435
   Office of Contracting                                                       9                363
   National Museum of African Art                                              9                308
   National Portrait Gallery                                                   8                228
   Office of Planning, Management, and Budget                                  3                125
   TOTAL                                                                  33,428          $683,195




   13
        Payments at this organization include $30,000 to one employee for an extended period.




                                                      E-1
APPENDIX F. CONTRIBUTORS TO THE REPORT

The following individuals from the Smithsonian Office of the Inspector General
contributed to this report:

Stuart A. Metzger, Assistant Inspector General for Audits
Joan T. Mockeridge, Supervisory Auditor
Kimm A. Richards, Senior Analyst
Alicia Hannon, Junior Analyst




                                          F-1
